                             NATIONAL SCIENCE FOWATICL.
                                 ARLINGTON, VA 22230




            Office of
        Inspector General



        MEMORANDUM
            DATE:    March 31,
            FROM :                                 gation Section
                                 y   - - -.   .   ---   ---   .
                                                              .   .
                                                                  .. .-   .. ... .. ,. ..,. .   :..   ...   .

    i    SUBJECT:    Closeout Memorandum

               TO:   Case No. I95030008
        On February 2, 1995, we received a complaint the      was unfairly
        by passing                                      when filling open
                                          t Positions.      Based on the
        allegation, I interviewed the
                                                        ho handles        s
        personnel actions.    Both stated that there were many highly
        classified applicants for the                positions and people
        were rated based on education and experience.            made the
        decision to select experienced individuals for these positions. I
        see no evidence that                  violated any regulations.
I       Therefore, this case is closed.
